C@OQCKLE

E-Mail Address:
WAL egal Briefs contact@cocklelegalbriefs.com
Est. 1923

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-348

JOHNSON & JOHNSON AND
JOHNSON & JOHNSON CONSUMER INC.,
Petitioners,

v.

LYNN FITCH, ATTORNEY GENERAL
OF THE STATE OF MISSISSIPPI,

EX REL. THE STATE OF MISSISSIPPI,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the AMICUS CURIAE BRIEF
OF THE FEDERATION OF DEFENSE & CORPORATE COUNSEL IN SUPPORT OF
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 3622 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 30th day of September, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

enema | Aone. 0. Boao Onduae-b Chol

My Comm. Exp. September 5, 2023
Notary Public Affiant 41467

 
